September 28, 2007


MEMORANDUM FOR:            EMILY STOVER DeROCCO
                           Assistant Secretary for Employment
                            and Training




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Insufficient Controls Over Hurricane-issued Debit
                           Cards Created Opportunities for Fraud
                           Management Letter No. 06-07-002-03-315

INTRODUCTION

This Office of Inspector General (OIG) Management Letter is being issued as
part of OIG’s audit in response to the 2005 Gulf Coast hurricanes. The complete
results of the audit will be summarized in a roll-up report.

We are recommending ETA take corrective actions to ensure the Louisiana
Department of Labor (LDOL) has adequate controls in place to safeguard
Unemployment Compensation (UC) and Disaster Unemployment Assistance
(DUA) benefits paid to its claimants by debit cards, and to recover any federally
funded benefits paid under the DUA grants that have not been claimed by or paid
to its claimants.

BACKGROUND

Following Hurricanes Katrina and Rita, many residents from the Gulf Coast
region were displaced and forced to relocate to other parts of the country. Not
only were these individuals without a home, many had lost their means to earn
an income and provide basic necessities for their families. As a result, an
unprecedented number of individuals in Louisiana were eligible and did apply for
assistance under one of two unemployment benefits programs. The first, State
UC, provides benefits to eligible workers who are unemployed through no fault of
their own, and meet eligibility requirements established by their states. UC
benefits are state-funded except for former federal employees. The second,
DUA, provides financial assistance to individuals whose employment or self-
employment has been lost or interrupted as a direct result of a major disaster
declared by the President of the United States. Before an individual can be
                                                                                     ATTACHMENT


determined eligible for DUA, it must be established that the individual is not
eligible for regular UC benefits.

DUA is federally funded by the Federal Emergency Management Agency (FEMA)
through transfer of funding to ETA for allocation of funds to State Workforce
Agencies, such as LDOL. Immediately after all payment activity has been
concluded for a disaster—up to 26 weeks after its declaration—funding should be
closed out and unexpended funds returned to FEMA, via ETA.

To expedite the delivery of benefits, LDOL implemented a new payment method
using debit cards1. LDOL contracted with JPMorgan Chase to establish debit
card accounts for claimants, and transferred pertinent information to the
company--name, address, full social security number (SSN), and birth date.
JPMorgan Chase contracted with Oberthur Card Services (Oberthur) to produce
and distribute these debit cards.

Debit cards were sent to claimants based on addresses provided when they
initiated their claims. Because so many claimants subsequently relocated, debit
cards were returned undelivered to LDOL, as well as Oberthur. Undelivered
cards were reissued only when claimants contacted LDOL or JPMorgan Chase
to update their new address.

Claimants who did receive their debit cards were instructed to call a toll-free
number and use JPMorgan Chase’s Interactive Voice Response system to
activate their account and create a personal identification number (PIN) by
entering their SSN and birth date. The PIN was a security measure to ensure
that only the person who activated the account could gain access to the
unemployment benefits paid on the card.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if:

    1. LDOL had adequate controls in place to ensure claimants eligible for
       Hurricanes Katrina- and Rita-related UC and DUA received benefits paid
       on debit cards;

    2. LDOL retrieved from JPMorgan Chase UC and DUA benefits paid on
       inactive debit cards; and

    3. LDOL had sufficient evidence to support the amount of reimbursements
       requested from ETA’s DUA grants.



1
  Debit cards allow authorized users 24-hour online or ATM access to their accounts with the convenience,
flexibility and spending power of a Visa® Check Card or MasterCard Banking Card.


                                                    2
                                                                                ATTACHMENT


We accomplished these objectives by:

    1. Reviewing the processes LDOL, JPMorgan Chase, and Oberthur used to
       manage and distribute debit cards to determine the sufficiency of controls
       in place to ensure claimants received the benefits to which they were
       entitled.

        To assess the controls Oberthur had in place, we reviewed its Statement
        on Auditing Standards (SAS) 70 report2, Independent Service Auditor’s
        Report on Controls Placed in Operation and Tests of Operational
        Effectiveness, for the period of December 1, 2005 – May 31, 2006.

    2. Matching LDOL payment records, as of October 23, 2006, against a data
       file JPMorgan Chase provided to OIG that identified unactivated and
       undelivered debit card accounts, as of November 14, 2006 (no new debit
       cards were issued for hurricane-related claims after October 23, 2006), to
       determine the amount of benefits that remained on these accounts 60 or
       more days after the deposits were made.

        To achieve our objectives, we relied on computer-processed data
        contained in LDOL's payment records. We assessed the reliability of this
        data and found it to be adequate except for a discrepancy that resulted
        from a backlog in LDOL’s processing of an unprecedented number of
        transactions. We believe this discrepancy will be resolved once LDOL
        eliminates the claims backlog. Therefore, we feel that the data reported in
        LDOL's payment records are complete with the exception of these
        unprocessed transactions.

        We also relied on computer-processed data contained in the JPMorgan
        Chase Data File. We did not establish the reliability of this data
        because we had no means to assess the reliability of the reported
        transactions. As a result, additional investigations are needed to confirm
        whether the lack of controls affected legitimate claimants receiving
        benefits to which they were entitled.

    3. Comparing the total DUA benefits LDOL recorded as having paid for both
       Hurricanes Katrina and Rita to its accounting records, as well as the
       drawdowns it made from the ETA grants, to test the integrity of LDOL’s
       payment file and ensure the information we used in our analysis was



2
  SAS 70 reports are used to examine control activities for service organizations and providers to
demonstrate whether adequate controls and safeguards are in place when they host or process
their client’s data. A SAS-70 report was not available to cover the period when the debit cards
were first sent to LDOL’s claimants--September 15, 2005, through November 30, 2005.



                                                3
                                                                                    ATTACHMENT


        complete and accurate.

    4. Reviewing the results of the LDOL Audit Division’s review, performed
       April 1 – May 21, 2006, over the security of debit cards returned to LDOL’s
       offices. No additional procedures were performed to support the reliability
       of LDOL’s findings.

JPMorgan Chase investigates reports of fraud or misuse of debit cards in
accordance with Regulation E3, but denied our request to review pending or
closed cases as they relate to debit cards issued to LDOL’s claimants.
Therefore, we cannot quantify the financial impact the control deficiencies
identified in this management letter has had if someone other than the intended
claimant obtained unauthorized unemployment benefits.

Our audit period was based on benefits paid for the weeks ending September 10,
2005, through June 3, 2006.4 We conducted fieldwork at LDOL’s central
administrative offices in Baton Rouge, Louisiana, and analyzed LDOL’s
electronic claims files in our Denver Office, from January 2006 to February 2007.

RESULTS

LDOL and JPMorgan Chase used procedures to administer debit cards that
created opportunities for ineligible persons to gain access to benefits to
which there were not entitled.

Section 303(a)(1) of the Social Security Act requires that each state establish a
system for paying unemployment benefits to qualified individuals who become
unemployed through no fault of their own:

        The Secretary of Labor shall make no…payment to any State
        unless he finds that the law of such State…includes provision for
        such methods of administration…to insure full payment of
        unemployment compensation when due.

Therefore, it is LDOL’s responsibility to establish sufficient controls over its
disbursement of UC and DUA funds to ensure benefits are received by the
intended qualified claimants.




3
  Regulation E, monitored and enforced by the Federal Reserve System, addresses Electronic
Fund Transfers. It establishes the rights, liabilities, and responsibilities of parties in electronic
funds transfers, and protects consumers when they use such systems.
4
 Hurricane Katrina benefits were payable through the week ending June 3, 2006. Hurricane Rita
benefits were payable through the week ending June 24, 2006.



                                                   4
                                                                               ATTACHMENT



Controls over claimant security data

LDOL and JPMorgan Chase circumvented controls they had in place to ensure
that debit card activation and benefit access was limited to authorized claimants.
LDOL granted JPMorgan Chase customer service representatives (CSRs)
access to claimant security data, such as birthdates, SSNs, and addresses.
CSRs had the capability to either reveal to claimants, or change, the birthdates
recorded in claimants’ accounts, in order to facilitate the activation of their debit
cards. Further, CSRs also had the capability to change the addresses to which
re-issued debit cards were mailed.5

JPMorgan Chase’s Interactive Voice Response system required claimants to
confirm birthdates and SSNs in order to establish a PIN for and activate their
debit cards. Claims entered into DOL’s system contained inaccurate security
data, resulting in claimants encountering problems with the activation process
and contacting the CSRs for assistance. Instead of LDOL requiring the CSRs to
refer claimants to its offices to confirm other security data in LDOL’s claims
system —past employers, employment dates, wages, etc.—to establish the
claimants’ identity before changing birthdates and addresses, LDOL allowed the
CSRs to unilaterally change them. LDOL also allowed CSRs access to
claimants’ full SSNs instead of just partial SSNs (i.e. the last four digits.) These
actions created opportunities for ineligible persons, including the CSRs, to gain
access to benefits to which they were not entitled.

Controls over returned debit cards

LDOL had implemented an inadequate policy for handling debit cards returned to
its offices. While this policy instructed employees to immediately destroy
returned debit cards, it did not include controls to ensure accountability over
these cards, such as limiting who could receive them, or recording their receipt
and destruction.

While at LDOL’s offices, we learned that debit cards had been returned as
undelivered from the U.S. Postal Service, as well as directly from claimants6.
LDOL’s Audit Division informed us of its subsequent review of returned cards to
evaluate the adequacy of physical controls over cards, as well as to determine
whether staff was in compliance with LDOL’s established policies. As a result of
the review, the LDOL’s Audit Division issued an internal memorandum to LDOL
management on June 1, 2006, outlining the following findings:
5
 Claimants needed to provide CSRs with the SSN on an account to learn or change the
associated birth date, and had to provide the SSN and original address on the account to effect
an address change.
6
  Some claimants who were not entitled to unemployment benefits or did not want this assistance
returned the debit cards they had received to LDOL.



                                                5
                                                                   ATTACHMENT



   1. A tray of unsecured debit cards was found outside the offices of the LDOL
      Accounting Division. Some cards were still intact and had not been
      destroyed in accordance with LDOL policy.

   2. LDOL employees were neither following, nor aware of, the established
      policy for handling returned debit cards.

   3. 30 debit card accounts were identified during the review as having
      questionable social security numbers.

The controls LDOL had in place were not sufficient to properly handle and
account for debit cards returned to its offices, creating an opportunity for LDOL
employees--who have access to the LDOL claims system containing information
needed to activate debit cards--to activate the returned debit cards and illegally
gain access to unemployment benefits.

LDOL paid, and had not retrieved, approximately $1.2 million in hurricane-
related benefits on 1,570 debit card accounts that were never activated.

The State of Louisiana paid, and had not retrieved, $1,193,379 in Hurricanes
Katrina- and Rita-related UC and DUA benefits applied to 1,570 debit cards
accounts that were never activated by the claimants. Of this amount, $354,070
was paid from the DUA grants.

Employment and Training Handbook, No. 356, Chapter IX, Closeout, states, in
part:
      Once payment activity has ceased or the end of the disaster
      assistance period, it is important to close out the disaster as soon
      as possible. This is necessary because disaster funds are no-year
      funds and any unused state funds will be reobligated by FEMA for
      future disasters.

Further, LDOL’s Debit Card Business Rules require that UC and DUA funds paid
on debit card accounts with no activity within 60 days be returned to the agency.

Delays in entering paid claims created a $2.7 million discrepancy in LDOL’s
records.

As of October 23, 2006, LDOL had drawn down $2,622,229 and $118,496 more
from the DUA grants for Hurricanes Katrina- and Rita- related claims,
respectively, than it had evidence to support were paid by its claims system.
LDOL officials claimed that these differences in DUA totals between the
accounting and claims systems were the result of backlogged transactions they
estimated would be completed and entered into the claims system within a year.




                                        6
                                                                  ATTACHMENT


Regulations over the administration of DUA grants, Employment and Training
Handbook No. 356, Chapter IX, Closeout, Financial Monitoring, require that
“Regions . . . monitor each DUA project to ensure that excess funds are not
being maintained by the State. . . .”

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training:

1. Work with the LDOL to ensure adequate controls are in place, internally as
   well as with contracted service organizations, to safeguard debit cards and
   protect confidential information belonging to claimants. These procedures
   should be evaluated to ensure the intended objectives are achieved and
   effective in mitigating the risk of fraud;

2. Ensure that LDOL takes action to adequately address the results of its Audit
   Division’s internal review;

3. Work with LDOL to retrieve approximately $1.2 million from JPMorgan Chase
   for UC and DUA benefits paid on inactive debit card accounts. In addition,
   $354,070 of this amount should immediately be returned to ETA for benefits
   paid under the DUA grants; and

4. Monitor LDOL’s processing of its backlogged claims to facilitate the
   reconciliation of discrepancies between its accounting and claims systems.
   Upon completion, collect any funds LDOL has drawn down in excess of
   claims paid.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that LDOL has negotiated a new contract with
JP Morgan Chase to safeguard debit cards and protect confidential information
belonging to claimants. Under the new contract, no funds will be deposited into
an account until the debit card is activated, and the bank will provide LDOL a
daily list of inactive cards. LDOL has also retrieved approximately $38-40 million
from JP Morgan Chase for benefits paid on inactive accounts. Further, it has
completed an investigation of all findings reported by its Audit Division, and has
established overpayments for State employees who were found to have received
improper benefits. ETA regional staff will monitor LDOL’s collection efforts as
well as its reconciliation of discrepancies between its accounting and claims
system and, further, will ensure that, where applicable, the DUA portion of funds
is returned to the proper DUA grant. The Assistant Secretary’s response is
included in its entirety as an Attachment.




                                        7
                                                                 ATTACHMENT


OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendations
resolved. They will be closed upon receipt of documentation to support LDOL’s
and ETA regional staff’s actions taken to address the recommendations, as
described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days documenting actions taken in response to the
recommendations.

If you have any questions concerning this Management Letter, please contact
David Williams, Regional Inspector General for Audit, in Dallas at (972) 850-
4005.

Attachment

cc:   Howard Radzely
      Acting Deputy Secretary

      Phyllis Newby
      ETA Audit Liaison




                                       8
    ATTACHMENT




9
     ATTACHMENT




10
